   Department of Health and Human Services
                      OFFICE OF
                 INSPECTOR GENERAL




  THE REGIONAL EXTENSION CENTER
PROGRAMS IN TEXAS MET THE SCOPE OF
   SERVICES IN THEIR COOPERATIVE
AGREEMENTS WITH THE OFFICE OF THE
 NATIONAL COORDINATOR FOR HEALTH
     INFORMATION TECHNOLOGY

     Inquiries about this report may be addressed to the Office of Public Affairs at
                              Public.Affairs@oig.hhs.gov.




                                                          Kay L. Daly
                                                  Assistant Inspector General

                                                           June 2013
                                                         A-06-12-00023
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 The Office of the National Coordinator for Health Information Technology’s Regional
 Extension Centers in Texas met the scope of services in their cooperative agreements.

WHY WE DID THIS REVIEW

The Health Information Technology for Economic and Clinical Health Act (HITECH Act)
established the Office of the National Coordinator for Health Information Technology (ONC).
ONC is responsible for coordinating the effort to implement a nationwide health information
technology (health IT) infrastructure that allows for the meaningful use and exchange of health
information through the use of certified electronic health record (EHR) technology. The
HITECH Act also authorized the Health Information Technology Extension Program, which
supports Health Information Technology Regional Extension Center (REC) programs that work
with vendors and providers to implement the new technology.

The objective of this review was to determine if the Texas REC programs met the scope of
services that is part of their cooperative agreements with ONC to assist in the implementation of
ONC’s Health Information Technology Extension Program.

BACKGROUND

On February 17, 2009, the President signed the American Recovery and Reinvestment Act of
2009 (Recovery Act), P.L. No. 111-5. Title XIII of Division A and Title IV of Division B of the
Recovery Act are cited together as the HITECH Act. The HITECH Act established ONC as the
principal Federal entity responsible for coordinating the effort to implement a nationwide health
IT infrastructure that allows for the use and exchange of health information in electronic format.

The HITECH Act also authorized a Health Information Technology Extension Program, which
consists of a national Health Information Technology Research Center (HITRC) and the REC
programs. HITRC gathers relevant information on effective practices from a wide variety of
sources across the country to help the REC programs collaborate with one another and relevant
stakeholders to identify and share best practices supporting EHR adoption, effective use, and
provider support. With an initial allocation of $677 million, ONC established and funded 62
REC programs nationwide to help more than 100,000 providers demonstrate the meaningful use
of certified EHR technology.

WHAT WE FOUND

The Texas REC programs were successful in meeting the scope of services in their cooperative
agreements with ONC.




Implementation of the Health Information Technology Extension Program in Texas (A-06-12-00023)   i
                                                   TABLE OF CONTENTS

                                                                                                                                          Page

INTRODUCTION..................................................................................................................... 1

          Why We Did This Review ............................................................................................ 1

          Objective ........................................................................................................................ 1

          Background ................................................................................................................... 1
                Health Information Technology for Economic and Clinical Health Act ............ 1
                Health Information Technology Extension Program .......................................... 2
                Texas Regional Extension Centers ..................................................................... 2

          How We Conducted This Review ................................................................................ 3

RESULTS OF AUDIT .............................................................................................................. 3

OTHER MATTER.................................................................................................................... 3

Contracts Not Renewed in a Timely Manner ..........................................................................3

APPENDIXES

          A: AUDIT SCOPE AND METHODOLOGY ............................................................... 5

          B: ACRONYMS AND ABBREVIATIONS ................................................................. 6




Implementation of the Health Information Technology Extension Program in Texas (A-06-12-00023)                                                   ii
                                              INTRODUCTION

WHY WE DID THIS REVIEW

The Health Information Technology for Economic and Clinical Health Act (HITECH Act)
established the Office of the National Coordinator for Health Information Technology (ONC).
ONC is responsible for coordinating the effort to implement a nationwide health information
technology (health IT) infrastructure that allows for the “meaningful use” and exchange of health
information through the use of certified electronic health record (EHR) technology. 1 The
HITECH Act also authorized the Health Information Technology Extension Program, which
supports Health Information Technology Regional Extension Center (REC) programs that work
with vendors and providers to implement the new technology.

OBJECTIVE

Our objective was to determine if the Texas REC programs met the scope of services that is part
of their cooperative agreement with ONC to assist in the implementation of ONC’s Health
Information Technology Extension Program.

BACKGROUND

Health Information Technology for Economic and Clinical Health Act

On February 17, 2009, the President signed the American Recovery and Reinvestment Act of
2009 (Recovery Act), P.L. No. 111-5. Title XIII of Division A and Title IV of Division B of the
Recovery Act are cited together as the HITECH Act. The HITECH Act established ONC, an
entity within the Office of the Secretary for the U.S. Department of Health and Human Services,
as the principal Federal entity responsible for coordinating the effort to implement a nationwide
health IT infrastructure that allows for the use and exchange of health information in electronic
format.

The HITECH Act includes provisions to promote the meaningful use of health IT to improve the
quality and value of American health care. It authorized incentive payments for eligible
Medicare and Medicaid providers who demonstrate the meaningful use of certified EHR
technology. For calendar years 2011 through 2016, eligible Medicare providers may receive up
to $44,000 over 5 years under the Medicare EHR Incentive Program. For calendar years 2011
through 2021, Medicaid providers may receive up to $63,750 over 6 years under the Medicaid
EHR Incentive Program.


1
  An EHR allows providers to record patient information, including medical histories and procedures, electronically
rather than use paper records. The EHR Incentive Program requires providers to use the capabilities of their EHRs to
achieve benchmarks that can lead to improved patient care. ONC defines “meaningful use,” in part, as using
certified EHR technology to improve the quality, safety, and efficiency of health care; reducing health care
disparities; and improving care coordination. The Department of Health and Human Services’ Office of the
Secretary established certification criteria for EHR technology.




Implementation of the Health Information Technology Extension Program in Texas (A-06-12-00023)                    1
In 2015, Medicare providers are expected to have adopted and be actively utilizing EHR
technology in compliance with the meaningful use definition, or they will be subject to financial
penalties under Medicare (sections 4101(b) and 4102(b) of the Recovery Act). Starting in 2015,
Medicare will reduce by 1 percent reimbursements to providers who do not demonstrate the
meaningful use of certified EHR technology. This penalty is to be increased annually to a
maximum of 5 percent in 2019 and thereafter.

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Therefore, the participation of Medicaid providers in the health IT
program is considered voluntary, and providers who do not demonstrate meaningful use of
certified EHR technology by 2015 will not be penalized.

Health Information Technology Extension Program

The HITECH Act also authorized the Health Information Technology Extension Program, which
consists of a national Health Information Technology Research Center (HITRC) and the REC
programs. HITRC gathers relevant information on effective practices from a wide variety of
sources across the country to help the REC programs collaborate with one another and relevant
stakeholders to identify and share best practices supporting EHR adoption, effective use, and
provider support. REC program services include outreach and education, EHR support (e.g.,
working with vendors and helping providers choose a certified EHR system), and technical
assistance in implementing health IT and using it in a meaningful way to improve care.

ONC initially funded HITRC through a grant of approximately $50 million. ONC established 62
REC programs nationwide to help more than 100,000 providers demonstrate the meaningful use
of certified EHR technology. ONC initially allocated $677 million to support the REC
programs.

Texas Regional Extension Centers

The Dallas-Fort Worth Hospital Council Education And Research Foundation established the
North Texas Regional Extension Center (NTREC) program in April 2010. The NTREC program
provides assistance to providers in 42 north Texas counties. As of January 4, 2012, ONC had
awarded the NTREC program a total of $9,056,775 in Federal funds for the project period April
6, 2010, through April 5, 2014. The NTREC program had a total of 1,247 enrolled providers,
152 of which had attained meaningful use of certified EHR technology as of December 31, 2011.

The F. Marie Hall Institute for Rural and Community Health at Texas Tech University Health
Sciences Center established the West Texas Health Information Technology Regional Extension
Center (WTxHITREC) program in April 2010. The WTxHITREC program provides technical,
onsite assistance and guidance to providers in 108 west Texas counties. As of February 15,
2012, ONC had awarded the WTxHITREC program a total of $8,437,775 in Federal funds for




Implementation of the Health Information Technology Extension Program in Texas (A-06-12-00023)   2
the project period. The WTxHITREC program had a total of 864 enrolled providers, 18 of which
had attained meaningful use of certified EHR technology as of February 2, 2012.

 The CentrEast Regional Extension Center (CentrEast REC) program is operated by the Rural
and Community Health Institute and is a component of the Texas A&M Health Science Center.
The CentrEast REC program offers guidance to providers in 47 counties in central and east
Texas. As of March 31, 2010, ONC had awarded the CentrEast REC program a total of
$5,279,970 in Federal funds for the project period. The CentrEast REC program had a total of
974 enrolled providers, of which 46 had attained meaningful use of certified EHR technology as
of April 19, 2012.

The Gulf Coast Regional Extension Center (GCREC) program covers the southern areas of
Texas along the Gulf Coast and serves providers in 57 counties. As of December 13, 2011, ONC
had awarded the GCREC program a total of $16,597,775 in Federal funds for the project period.
The GCREC program had a total of 2,200 enrolled providers, of which 81 had attained
meaningful use of certified EHR technology as of April 30, 2012.

HOW WE CONDUCTED THIS REVIEW

We reviewed the following scope-of-service categories listed in the contracts between the REC
programs and ONC: education and outreach, vendor selection and group purchasing,
implementation and project management, practice and workflow redesign, functional
interoperability and health information exchange, privacy and security best practices, and
progress toward meaningful use. We also reviewed contractual agreements the REC programs
had with ONC and subcontractors and the REC programs’ annual budget and expenditures.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                        RESULTS OF AUDIT

The Texas REC programs were successful in meeting the scope of services in their cooperative
agreements with ONC. The Texas REC programs fulfilled their scope of services by:

   •   conducting outreach activities such as participating in the Texas Health IT summit,
       sending brochures about their services to providers, and advertising in the Texas
       Academy of Family Physicians magazine;

   •   helping with vendor selection by working with providers to determine the best product
       for their service specialties;




Implementation of the Health Information Technology Extension Program in Texas (A-06-12-00023)   3
   •   working with vendors and providers to review the implementation plan for completeness
       and offering consulting and troubleshooting to providers;

   •   spending time onsite at providers documenting current workflows and consulting the
       providers on redesigned workflows;

   •   providing education on industry best practices to secure information; and

   •   offering training to providers to help them achieve meaningful use.

Health Information Exchanges had not been established as of May 2013; therefore, the RECs did
not work with providers on connecting to the exchanges.

As a result, we do not have any recommendations for ONC as part of the Texas REC programs’
scope of services.

                                          OTHER MATTER

CONTRACTS NOT RENEWED IN A TIMELY MANNER

The GCREC program did not renew in a timely manner three expired contracts with
subcontractors that assisted providers in their efforts to achieve different milestones prescribed in
the contracts and, ultimately, to demonstrate meaningful use of certified EHR technology. The
CentrEast REC program did not renew one expired contract in a timely manner. Renewal of
these types of contracts in a timely manner is important in effectively implementing ONC’s
Health Information Technology Extension Program.

The GCREC and CentrEast REC programs’ management were not proactive in ensuring that
expiring contracts were renewed in a timely manner. As a result, the subcontractors could have
terminated services to providers who had not attained the prescribed milestones to demonstrate
the meaningful use of certified EHR technology.




Implementation of the Health Information Technology Extension Program in Texas (A-06-12-00023)     4
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed the following scope-of-service categories listed in the contracts between the REC
programs and ONC: education and outreach, vendor selection and group purchasing,
implementation and project management, practice and workflow redesign, functional
interoperability and health information exchange, privacy and security best practices, and
progress toward meaningful use. We also reviewed contractual agreements the REC programs
had with ONC and subcontractors and the REC programs’ annual budgets and expenditures. We
did not review the following scope-of-service categories listed in the contracts between the REC
programs and ONC: use of local health IT workforce support and participation in a national
consortium.

We conducted our fieldwork at the following four Texas REC programs:

   •   NTREC, Irving;

   •   WTxHITREC, Lubbock;

   •   CentrEast REC, Bryan; and

   •   GCREC, Houston.

METHODOLOGY

To accomplish our objective, we:

   •   reviewed applicable Federal requirements,

   •   observed operations at the REC programs,

   •   conducted interviews with REC program officials,

   •   examined the REC programs’ policies and practices, and

   •   analyzed the REC programs’ expenditures.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Implementation of the Health Information Technology Extension Program in Texas (A-06-12-00023)   5
                    APPENDIX B: ACRONYMS AND ABBREVIATIONS

CENTREAST REC           CentrEast Regional Extension Center program
CMS                     Centers for Medicare & Medicaid Services
EHR                     electronic health record
GCREC                   Gulf Coast Regional Extension Center program
HHSC                    Health and Human Services Commission
HIE                     Health Information Exchange
HITECH                  Health Information Technology for Economic and Clinical Health Act
HITRC                   Health Information Technology Research Center
NTREC                   North Texas Regional Extension Center program
OIG                     Office of Inspector General
ONC                     Office of the National Coordinator for Health Information Technology
REC                     Regional Extension Center program
WTxHITREC               West Texas Health Information Technology Regional Extension Center
                        program




Implementation of the Health Information Technology Extension Program in Texas (A-06-12-00023)   6
